Office of Inspector General
 for the Millennium Challenge Corporation



December 20, 2011


Mr. Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s Report No. M-000-12-001-S on the
Review of the Millennium Challenge Corporation’s Approach to Address and Deter Trafficking in
Persons. In finalizing the report, we considered your written comments on our draft report and
included those comments in their entirety in Appendix II of this report.

The report contains one recommendation to strengthen the Millennium Challenge Corporation’s
(MCC) efforts to address and help prevent trafficking in persons. OIG agrees with MCC’s
management decision on the recommendation and that final action has been taken.

I appreciate the cooperation and courtesy extended to my staff during this review.

Sincerely,

    /s/


Mark S. Norman
Acting Deputy Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H. Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
SUMMARY
The William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 (Public Law
110-457), dated December 23, 2008, requires for each of the fiscal years (FY) 2010 through
2012 that the Inspectors General of the U.S. Department of Defense, U.S. Department of State,
and U.S. Agency for International Development (USAID) investigate a sample of contracts
under which there is a heightened risk that a contractor may knowingly or unknowingly engage
in acts related to trafficking in persons (TIP). Section 232 of the act requires those Inspectors
General to either jointly or separately submit to specified congressional committees an annual
report summarizing the findings of the investigations conducted in the previous FY by no later
than January 15. The Office of the Inspector General (OIG) for the Millennium Challenge
Corporation (MCC) conducted this review to provide information for the USAID/Inspector
General’s report to Congress. Because this report covers the investigation for FY 2011, OIG
therefore interpreted the statutory provision to require submission by January 15, 2012.1

The U.S. Department of State’s June 2011 TIP Report stated that for the past 15 years,
“trafficking in persons” and “human trafficking” have been used as umbrella terms for activities
involved when one person obtains or holds another person in compelled service. However,
people may be trafficking victims regardless of whether they were born into a state of servitude
or were transported to the exploitative situation, whether they once consented to work for a
trafficker, or whether they participated in a crime as a direct result of being trafficked. The
Department of State’s TIP Report ranks countries according to four tiers based on language
contained in 22 U.S.C. 1707(b): The tiers are Tier 1, Tier 2, Tier 2 Watch List, and Tier 3. The
best ranking is Tier 1 and the worst is Tier 3. Table 3 in Appendix V contains the Department of
State’s description of each tier.

The objective of OIG’s review was to determine what controls MCC has designed to help
prevent TIP in its funded programs.2 This review found that MCC had designed controls to help
prevent TIP in its projects by (1) adopting a zero tolerance policy, (2) putting in procurement
mechanisms that included stronger TIP language, (3) addressing TIP when selecting countries
eligible for MCC funding, (4) including activities and actions designed to minimize the risk of TIP
(principally seeking to deter potential offenders) in its compact development and implementation
phases, and (5) sharing TIP knowledge and engaging stakeholders. In addition, to date no
reports of TIP allegations have been linked to MCC projects. OIG did not observe any
indications of TIP during site visits to MCC-funded infrastructure projects in El Salvador in FY
2011. The Investigations Office of the USAID Inspector General and the U.S. Department of
State’s Office to Monitor and Combat Trafficking in Persons also did not receive allegations of
TIP associated with MCC’s projects.



1
  Section 232 states that the reports summarizing the investigations are due “[n]ot later than January 15,
2009, and annually thereafter through January 15, 2011,” but that statement appears to be erroneous.
Given that Section 232 requires the investigations for “each of the fiscal years 2010 through 2012,” it
appears that the corresponding due dates would be those shown in brackets in the following: “Not later
than January 15, [2009 2011], and annually thereafter through January 15, [2011 2013].”
2
  According to MCC officials, MCC funds are not subject to the Trafficking Victims Protection Act of 2000,
as amended, Division A of Public Law 106-386, the act for which funding was reauthorized by the William
Wilberforce Trafficking Victims Protection Reauthorization Act of 2008 discussed above. Nevertheless,
the MCC officials stated that MCC is complying with the spirit of the legislation.

                                                    2
Although MCC had designed controls to help prevent TIP, OIG found that MCC did not provide
warning letters to two countries whose rankings were Tier 2 Watch List for a second
consecutive year and one country whose ranking was downgraded from Tier 2 to Tier 2 Watch
List (page 5).

Detailed results of this review appear in the following section. The scope and methodology are
included in Appendix I. An evaluation of management comments is included in the report on
page 8, and the full text of management comments appears in Appendix II.




                                              3
REVIEW RESULTS
MCC has designed TIP controls. MCC has designed controls to help prevent TIP as it relates
to the projects and activities that it funds. The controls include the appointment of specific staff
responsible for TIP in its Department of Compact Operations (DCO) and its Department for
Policy and Evaluation (DPE). In DCO, all Social and Gender Assessment (SGA) staff is
responsible for assessing TIP risks in MCC-funded projects during the different stages of
compact operations (development and implementation). In older compacts, SGA and
Environmental and Social Assessment staff members share this responsibility.

MCC’s controls for helping to prevent TIP risks in MCC-funded projects include the following five
components, which are part of its "Holistic and Risk-based Approach to Managing the Risk of
TIP”: (1) zero tolerance policy, (2) procurement mechanisms, (3) country eligibility, (4) compact
development and implementation, and (5) knowledge sharing/stakeholders’ engagement.

    Zero tolerance policy – MCC’s Material Interim Amendment Notice 2011-001 to the Program
    Procurement Guidelines (PPG), dated May 23, 2011, states that MCC has a zero tolerance
    policy regarding TIP. The PPG further states that contractors, bidders, and consultants must
    notify their employees of MCC's zero tolerance policy and stipulates that employees must
    not engage in TIP during the performance of any contract funded, in whole or in part, with
    MCC funding.

    Procurement mechanisms – MCC’s PPG requires that large works contracts, small works
    contracts, consulting services contracts, and standard bidding documents include provisions
    that contractors and their employees must certify that they are not engaged in TIP.3

    Country eligibility – Countries ranked as Tier 3 do not make MCC’s country candidate list.
    For example, MCC’s Report on Countries that are Candidates for Millennium Challenge
    Account Eligibility for Fiscal Year 2012 and Countries that would be Candidates but for
    Legal Prohibitions, August 2011, states that Eritrea is subject to restrictions due to its status
    as a Tier 3 country under the Trafficking Victims Protection Act of 2000, as amended.

    Compact development and implementation – When a country is selected as eligible for a
    compact, SGA provides guidance on MCC’s approach to TIP risks through a variety of
    activities, including an in-country visit (usually conducted at an early stage of the compact
    development phase), especially if the country is high risk for TIP. Tier 2 Watch List
    countries are specifically addressed because the TIP risks for these countries are higher.
    For example, during compact development for the Philippines, the terms of reference for an
    Environmental and Social Impact Assessment, dated October 2010, on road projects in the
    Philippines, considered TIP.

    Knowledge sharing/stakeholders’ engagement – MCC management encourages the
    resident country team to communicate regularly with the U.S. embassy and with MCC staff
    in Washington about evolving TIP issues.        In addition, MCC engages other U.S.
    Government agencies, donors, nongovernmental organizations, and contractors to learn
    from their experiences and best management practices to refine MCC’s approach on TIP.

3
 MCC’s guidance on standard bidding documents defines large works as construction contracts having a
value of $10 million or greater and small works contracts as having a value of $1 million to $10 million.

                                                   4
MCC infrastructure contracts contained TIP provisions. MCC included TIP provisions in
selected contracts and countries reviewed by OIG: El Salvador, Ghana, Mali, and Namibia. OIG
reviewed a total of 17 contracts, valued at about $397 million, as required by Public Law 110-
457, Section 232. (See Table 1 in Appendix III for the list of contracts reviewed.)

    For the El Salvador compact, OIG reviewed 12 large works contracts that supported the
    compact. These contracts contained clauses that prohibited child labor, sex trafficking, and
    prostitution.

    For the Ghana compact, OIG reviewed one large works contract and one small works
    contract that supported the compact. These contracts contained a clause that prohibited
    child labor. One contract contained a clause that prohibited child labor, sex trafficking, and
    prostitution. The other contract contained a clause that imposed restrictions on the
    contractor set forth in the compact or related documents with respect to any activities in
    violation of other applicable U.S. laws, which according to MCC officials, includes TIP.

    For the Mali compact, OIG reviewed two large works contracts that supported the compact.
    These contracts contained clauses that prohibited child labor, sex trafficking, and
    prostitution.

    For the Namibia compact, OIG reviewed one large works contract that supported the
    compact. This contract contained clauses that prohibited child labor, sex trafficking, and
    prostitution.

Although MCC had designed controls to help prevent TIP in connection with its investments
during compact development and implementation, it did not provide warning letters to two
countries whose rankings were Tier 2 Watch List for a second consecutive year and one country
whose ranking was downgraded from Tier 2 to Tier 2 Watch List. MCC also continued to
provide full compact funding to countries whose TIP rankings were on the Tier 2 Watch List for 2
or more consecutive years. These issues are discussed below.

MCC needs to finalize and implement communications plans. MCC’s Approach to
Trafficking in Persons (TIP) Guidance for MCC Staff, February 2010, states that consistent with
its policy on suspension and termination, MCC can provide warnings to countries that show a
pattern of behavior inconsistent with MCC’s selection criteria. However, MCC did not provide
warning letters to three countries whose rankings did not improve or were downgraded. If such
warning letters are not acted upon, MCC may partially or fully suspend or terminate a country’s
eligibility to continue developing or implementing a compact or threshold program. The
Department of State’s June 2011 TIP Report ranked Tanzania and Niger as Tier 2 Watch List
for the second consecutive year, and downgraded Liberia from Tier 2 to Tier 2 Watch List.

According to an MCC official, MCC is developing communications plans4 that will include
sending notices to Liberia, Niger, and Tanzania expressing MCC’s eligibility concerns. The MCC
official further stated that the plans are currently being coordinated among its DCO and DPE
staff. Additionally, the official stated that the plans had not been finalized due to the lack of
availability of key staff members and that the plans were expected to be ready in FY 2012.
According to the Department of State, Section 107 of the William Wilberforce Trafficking Victims
4
 A communications plan is a written document that encompasses objectives, goals, and tools for all
communications.

                                                5
Protection Reauthorization Act of 2008, as codified at 22 U.S.C. 7107(b)(3)(D), mandates that
any country ranked as Tier 2 Watch List for 2 consecutive years will be ranked Tier 3 in the third
year.5 Pursuant to the act, sanctions may be imposed on Tier 3 countries, such as withholding
or withdrawing certain types of nonhumanitarian, nontrade-related foreign assistance.
Consequently, MCC needs to specify when in FY 2012 it will communicate its TIP concerns with
Liberia, Niger, and Tanzania.

        Recommendation 1. We recommend that the Millennium Challenge
        Corporation’s Vice President of Policy and Evaluation finalize and implement the
        fiscal year 2012 communications plans for Liberia, Niger, and Tanzania.

MCC continues to fund countries with TIP issues. MCC continued to provide full compact
funding to countries whose TIP rankings were Tier 2 Watch List for 2 or more consecutive
years, such as in the case of Mali. In Tier 2 Watch List countries, the number of victims
experiencing severe forms of trafficking is very significant or significantly increasing, or the
country failed to provide evidence that it is increasing its efforts to combat severe forms of TIP
from the previous year, despite the country’s commitments to take additional steps in the past
year. In June 2011, the Secretary of State granted a waiver to Mali to prevent an automatic
downgrade to Tier 3, which would have made the country subject to sanctions, including
withholding of certain types of nonhumanitarian, nontrade-related foreign assistance as defined
by the Trafficking Victims Protection Act of 2000. MCC elected to comply with the waiver for
Mali and to not subject the country to sanctions.

According to MCC officials, MCC’s Policy on Suspension or Termination of Assistance and/or
Eligibility for Assistance (updated November 2005) enables MCC to cease “to provide full
compact funding to any country due to policy concerns, including TIP-related policy concerns.”
The policy provides that MCC’s Chief Executive Officer, in full consultation with Board members,
may recommend that the Board suspend or terminate assistance, or terminate eligibility for
assistance, when a country has engaged in a pattern of actions inconsistent with selection
criteria. MCC’s selection criteria include the indicator Rule of Law, which captures country
performance on TIP. However, to date, MCC has not curtailed compact funding to any country
for TIP.

MCC addressed TIP issues previously identified in OIG reports. OIG’s previous review of
MCC’s Review of the Millennium Challenge Corporation’s Approach to Addressing and
Deterring Trafficking in Persons (Audit Report M-000-11-001-S, January 12, 2011) found that
MCC included TIP provisions in its guidelines for the procurement of large works contracts, but
did not include specific TIP provisions in its guidelines for the procurement of small works
contracts. The report included one recommendation that MCC revise the guidelines on Standard
Bidding Documents: Procurement of Small Works to include specific TIP provisions. MCC
complied with the recommendation by issuing the PPG on May 23, 2011. This amendment
required TIP language in small works contracts, as well as in large works and consulting
services contracts. Part 15 of the PPG, “Combating Trafficking in Persons”: (a) prohibits TIP;
(b) requires contractors, subcontractors, and consultants to notify their employees of MCC's
zero tolerance policy on TIP and notify the Millennium Challenge Account entity of TIP; and (c)
provides remedies to follow if TIP occurs.

5
  Unless the President waives the requirement after determining that the country has a written plan that, if
implemented, would constitute significant efforts to bring the country into compliance with the minimum
standards for the elimination of trafficking, and the country is devoting sufficient resources to implement
the plan.

                                                     6
To verify whether MCC is using the new TIP language in its procurements awarded after
May 23, 2011, seven small works contracts, valued at about $2.6 million, were judgmentally
selected from compacts in El Salvador, Ghana, and Mali. (See Table 2 in Appendix IV for the list
of contracts.) The three small works contracts for the El Salvador compact contained the
required TIP language. The three small works contracts for the Ghana compact were task
orders from Indefinite Delivery/Indefinite Quantity contracts that were awarded in 2008 and
2010. Because those contracts were awarded before the PPG was amended in May 2011, they
were not required to contain the new TIP language. According to an MCC official, the small
works contract reviewed for the Mali compact did not contain the required TIP language
because it was finalized close to when the amendment to the PPG was issued. However, the
Millennium Challenge Account required the contractor to certify in writing that it was not
engaging in, facilitating, or allowing TIP and to acknowledge the consequences of engaging in
TIP. To further verify that MCC included the new TIP language in procurement documents, OIG
reviewed four bidding documents for the Ghana compact that were issued in July 2011. These
bidding documents contained the TIP language as required under the PPG.

A prior report also found that MCC had not sent letters expressing its concerns to Lesotho, Mali,
and the Philippines regarding their tier rankings. During 2011, MCC sent letters to those three
governments.

   MCC sent a letter to Lesotho's Minister of Finance and Development, dated February 1,
   2011, reminding him that MCC takes TIP very seriously and that Tier 3 countries face
   certain foreign assistance restrictions.

   MCC sent a letter to Mali's President, dated January 27, 2011, stating that MCC was taking
   this opportunity to highlight the importance of policy performance in compact eligibility and to
   remind him that MCC considers government efforts to combat TIP.

   MCC sent a letter to the Philippines' President, dated January 27, 2011, stating that MCC
   takes TIP very seriously and reminding him that a low tier ranking could jeopardize MCC
   funding.




                                                7
EVALUATION OF
MANAGEMENT COMMENTS
MCC’s written comments on the draft report are included in their entirety in Appendix II of this
report.

MCC agreed with Recommendation 1, to finalize and implement the fiscal year 2012
communications plans for Liberia, Niger, and Tanzania. MCC provided its FY 2012 TIP
communication plans that address the recommendation. The communication plans provide
proposed strategies for communicating with compact and threshold partner countries that have
Tier 2 Watch List rankings. OIG considers that a management decision has been reached and
that MCC has taken final action.




                                               8
                                                                                       Appendix I


SCOPE AND METHODOLOGY
Scope
OIG conducted the review of MCC’s approach to address and deter TIP in accordance with
generally accepted government auditing standards.6 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our review objective. We believe that the evidence
obtained provides that reasonable basis (Government Auditing Standards 8.08-8.12). Our
objective was to determine what controls MCC designed to help prevent TIP in MCC-funded
programs. The scope of the review included analyzing judgmentally selected infrastructure
contracts issued between December 2008 and June 2011.

As part of OIG’s efforts to address TIP, audit teams conducting performance audits in FY 2011
carried out tests to determine whether TIP was occurring in MCC compact countries. Four
compact countries—El Salvador, Ghana, Mali, and Namibia—were selected for review because
they had infrastructure projects, which may have the highest risk of TIP. The total value of the
compacts for these four countries was about $1.8 billion. We analyzed OIG audit teams’
working papers regarding TIP audit tests during FY 2011 and reviewed 24 contracts valued at
$399 million. We also reported on the status of MCC countries that have received Tier 2 Watch
List rankings for 2 or more consecutive years. We conducted the review at MCC’s headquarters
in Washington, DC, from August 2 to October 5, 2011.

Methodology
We interviewed MCC officials in the DCO and DPE. Specifically, we interviewed MCC staff in
the SGA and Investment and Risk Management divisions. We also interviewed staff from the
Department of State’s Office to Monitor and Combat Trafficking in Persons and contacted the
USAID Office of the Inspector General’s Investigations Office. In addition, we reviewed the
Department of State’s June 2011 TIP Report.

To answer the review objective, review steps were established to determine the following:

      Whether MCC had included TIP provisions in its infrastructure contracts.

      Whether MCC was taking action against countries that did not make significant efforts to
      fully comply with minimum standards of TIP policy.

      Whether MCC was taking additional actions to design controls to help prevent TIP.




6
    Government Auditing Standards, July 2007 Revision (GAO-07-731G)

                                                  9
                                                                                       Appendix II


MANAGEMENT COMMENTS




                                                                                December 2, 2011


Mr. Mark Norman
Acting Assistant Inspector General
Office of Inspector General
1401 H Street NW
Suite 770
Washington, DC 20005

Dear Mr. Norman:

Thank you for your letter transmitting the draft report on the Office of the Inspector General’s
(OIG) Review of the Millennium Challenge Corporation’s (MCC) Approach to Address and
Deter Trafficking in Persons (TIP). I am pleased that your findings recognize that MCC has
designed controls and contract provisions to help prevent TIP in our projects with partner
countries, and that no reports of TIP have been linked to MCC programs.

I agree with your recommendation that “the Millennium Challenge Corporation’s Vice President
of Policy and Evaluation finalize and implement the fiscal year 2012 communications plans for
Liberia, Niger, and Tanzania.” To this end, attached are MCC’s TIP communication plans for
fiscal year 2012 that addresses the recommendation raised in your letter.

MCC’s communications plans take into account a number of country-specific factors, including:
(i) the number of years a partner country has been on the Tier 2 Watch List; (ii) opportunities for
MCC engagement with partner countries, including high-level communication with partner
governments; and (iii) the Department of State’s Office to Monitor and Combat Trafficking in
Persons’s (G/TIP’s) interim assessment of partner country efforts to comply with the minimum
standards of TIP policy. The timeframe for planned communications in fiscal year 2012 is
consistent with the 2011 time frame.
As noted in your draft report, MCC uses TIP rankings as a guide for MCC staff monitoring
human trafficking in partner countries and as an opportunity to engage contacts at the

                                                10
                                                                                 Appendix II

Department of State and the embassies, so that MCC can strategically communicate eligibility
concerns. MCC’s Policy on Suspension and Termination also governs MCC’s response when
countries demonstrate a decline in policy performance on eligibility related matters.

Please let me know if you have questions or concerns.

                                            Sincerely,
                                               /s/




                                              11
                                                                                                                                          Appendix II


                                    NOTES
                                                                                   FY2012 TIP Communication Plans
The G/TIP office conducts interim surveys for all Tier 2 Watch List countries
                                                                                   (As of 7 October 2011)
and releases their interim assessments in the Feb/March timeframe.
DPE plans to use preliminary conclusions drawn from G/TIP's interim survey
(available in December) as a helpful guide when considering the timing of our
policy letters.
If G/TIP believes a MCC partner country's TIP reform efforts are on track we
will send our notices after the interim assessments are finalized (adjusting the
tone as necessary); in partner countries where reform efforts are slower or
inadequate, we will send our notifications earlier (via routine post-Board
letters).



                                                    Country (w/Tier 2
                                                                                   Proposed Strategy (Coordinated with RCMs and Threshold Directors)
                                                    Watch List ranking)


                        Compact partners

                                                    Mali                           DPE provided TPs in support of the DVP and CEO visits this fall. DPE will coordinate with
                                                    3rd consecutive year,          G/TIP and RCM will stay in touch with the Embassy for updates on Mali’s TIP progress. If
                                                    received downgrade             G/TIP and Embassy assessments indicate Mali is making progress, DPE will draft letter to
                                                    waiver                         be sent Feb/March 2012 to coincide with G/TIP's public release of their interim assessment.
                                                                                   Should we learn in December that Mali has not made adequate progress on TIP action plan,
                                                    (letter)                       DPE will draft letter to be sent January 2012 (after Dec Board meeting). In December, DPE
                                                                                   will check-in to see if RCM engagement with Embassy leads to the identification of a better
                                                                                   notification window for MCC TIP letter.


                                                    Tanzania                       DPE will coordinate with G/TIP and RCM will stay in touch with the Embassy for updates on
                                                    2nd consecutive year           Tanzania’s TIP progress. If G/TIP and Embassy assessments indicate Tanzania is making
                                                                                   progress, DPE will draft letter to be sent Feb/March 2012 to coincide with G/TIP's public
                                                    (letter)                       release of their interim assessment. Should we learn in December that Tanzania has not
                                                                                   made adequate progress on TIP action plan, DPE will draft letter to be sent January 2012
                                                                                   (after Dec Board meeting). Should there be any high-level engagements between GOT and
                                                                                   MCC, RCM will highlight the opportunity for DPE to provide TPs on TIP eligibility concerns.



                      Threshold Partners
                                                    Liberia              Downgraded to Tier 2 Watch List in June 2011. MCC has multiple occassions to verbally
                                                    downgraded this year communicate our policy concern to the government. DPE can give the embassy TPs for use
                                                                         during the October 2011 Scorecard release. We can supply TPs for upcoming engagements
                                                    (verbal notice)      concerning our Threshold Program. Also, G/TIP’s interim assessment will be available in
                                                                         February/March 2012. We can give the embassy TPs to support engagements following the
                                                                         G/TIP interim report release. Should there be any high-level engagements in 2012 between
                                                                         GOL and MCC, Threshold POC will highlight the opportunity for DPE to provide TPs on TIP
                                                                         eligibility concerns.

                                                                                   MCC will give notice to Liberia using at least one, but not necessarily all, of the
                                                                                   opportunities outlined above.


                                                    Niger                          Maintained Tier 2 Watch List rank since 2010 TIP report. We will need to communicate our
                                                    2nd consecutive year           policy concern to Niger via letter. TPs were given in support of DVP Jim Park’s July 2011
                                                                                   Visit. We should also give the embassy TPs for use during the Scorecard release. Also,
                                                    (letter)                       G/TIP’s interim assessment will be available in February/March 2012 which means we have
                                                                                   multiple options for notifying Niger of MCC’s policy regarding TIP rankings. Africa Threshold
                                                                                   Director will engage the Embassy or G/TIP office for updates on Niger’s TIP progress. If
                                                                                   G/TIP and Embassy assessments indicate Niger is making progress against their action
                                                                                   plan, DPE will draft letter to be sent Feb/March 2012. Should we learn Niger has not made
                                                                                   adequate progress on their TIP action plan, DPE will draft letter to be sent January 2012
                                                                                   (after Dec Board meeting). Should there be any high-level engagements between GON and
                                                                                   MCC, Threshold POC will highlight the opportunity for DPE to provide TPs on TIP eligibility
                                                                                   concerns.




                                                                                             12
                                                                                                                                               Appendix II


The G/TIP office conducts interim surveys for all Tier 2 Watch List countries
                                                                                   (As of 7 October 2011)
and releases their interim assessments in the Feb/March timeframe.
DPE plans to use preliminary conclusions drawn from G/TIP's interim survey
(available in December) as a helpful guide when considering the timing of our
policy letters.
If G/TIP believes a MCC partner country's TIP reform efforts are on track we
will send our notices after the interim assessments are finalized (adjusting the
tone as necessary); in partner countries where reform efforts are slower or
inadequate, we will send our notifications earlier (via routine post-Board
letters).



                                                    Country (w/Tier 2
                                                                                   Proposed Strategy (Coordinated with RCMs and Threshold Directors)
                                                    Watch List ranking)


                                                    Tunisia                        Maintained Tier 2 Watch List rank since 2009 report. DPE will need to communicate our
                                                    3rd consecutive year,          policy concern to Tunisia via letter. We could include policy concerns in a post-selection
                                                    received downgrade             HOS letter but there are other opportunities for expressing our concern. For example,
                                                    waiver                         G/TIP’s interim assessment will be available February/March 2012. In December, DPE can
                                                                                   engage the Embassy or G/TIP office for updates on Tunisia’s TIP progress. If G/TIP and
                                                    (letter)                       Embassy assessments indicate Tunisia is making progress against their action plan, DPE
                                                                                   will draft letter to be sent Feb/March 2012 to coincide with G/TIP's public release of their
                                                                                   interim assessment. Should we learn Tunisia has not made adequate progress on their TIP
                                                                                   action plan, DPE will draft letter to be sent January 2012 (after Dec Board meeting). Should
                                                                                   there be any high-level engagements between GOT and MCC, a Threshold POC will
                                                                                   highlight the opportunity for DPE to provide TPs on TIP eligibility concerns.




                                                                                            13
                                                                          Appendix III


                 Table 1: List of Contracts Reviewed Under
                      Public Law 110-457, Section 232

                                                                   Amount Rounded
             Contractor                       Date Signed             ($Million)
                                      El Salvador
Linares, S.A. de C.V.                                August 2009               $12.7
Constructora Santa Fe                            September 2009                 14.1
FCC Construction of Central America               December 2009                 24.6
MECO Construction                                  February 2010                23.0
Astaldi                                            February 2010                16.0
Astaldi                                            February 2010                 8.8
El Consorcio Contein-Cortazar y                       March 2010                 7.7
Gutierrez
Linares, S.A. de C.V.                                 April 2010                21.5
Astaldi                                               April 2010                12.0
FCC Construction of Central America                   July 2010                 19.5
El Consorcio Contein-Cortazar y
Gutierrez – La Herrera                           September 2010                 20.1
Asocio Terrasal-Salazar Romero                     January 2011                 13.0
                                        Ghana
China Railway Wuju Corporation                   December 2008                  42.2
Arab Contractors, Egypt                              April 2010                  9.5
                                         Mali
Sinohydro Corporation Limited                    December 2009                  46.3
Sinohydro Corporation Limited                        June 2010                  71.6
                                       Namibia
China Jiangsu International Namibia              September 2010                 34.4
LTD
Total                                                                        $397.0
Source: Millennium Challenge Corporation. Nonaudited data.




                                          14
                                                                   Appendix IV


Table 2: List of Reviewed Contracts Awarded after May 23, 2011
                                                              Amount Rounded
            Contractor                   Date Signed             ($Million)
                                  El Salvador
Constructora R&L, S.A. de C.V.                   June 2011                $0.3
Desarrollo de Proyectos de
Ingeniería, S.A. de C.V.                         June 2011                 0.2
Constructora R&L, S.A. de C.V.                   June 2011                 0.2
                                    Ghana
Defiat Development Company                       May 2011                  0.5
Limited
Malsons Limited                                  May 2011                  0.8
Urban Development Consortium in
association with Nippon Koei UK                  June 2011                 0.5
                                       Mali
Corbett & Company International
Construction Lawyers Ltd.                         June 2011                0.1
Total                                                                     $2.6
Source: Millennium Challenge Corporation. Nonaudited data.




                                       15
                                                                                    Appendix V


     Table 3: The Department of State’s Trafficking in Persons
                        Tier Descriptions
   Ranking                                  Description
Tier 1       Countries whose governments fully comply with the minimum standards
             for the elimination of trafficking under Section 108 of the Trafficking
             Victims Protection Act of 2000 (Public Law 106-386), as codified at 22
             U.S.C. 7106.
Tier 2       Countries whose governments do not full comply with the act’s
             minimum standards but are making significant efforts to bring
             themselves into compliance with those standards.
Tier 2 Watch Countries whose governments do not fully comply with the act’s
List7        minimum standards, but are making significant efforts to bring
             themselves into compliance with those standards AND:

                      a) The absolute number of victims of severe forms of trafficking is
                         very significant or is significantly increasing;

                      b) There is a failure to provide evidence of increasing efforts to
                         combat severe forms of trafficking in persons from the previous
                         year, including increased investigations, prosecution, and
                         convictions in trafficking crimes; increased assistance to victims,
                         and decreasing evidence of complicity in severe forms of
                         trafficking by government officials; or

                      c) The determination that a country is making significant efforts to
                          bring itself into compliance with minimum standards was based
                          on commitments by the country to take additional future steps
                          over the next year
Tier 3            Tier 3 countries are countries whose governments do not fully comply
                  with the minimum standards and are not making significant efforts to do
                  so.




7
 This ranking corresponds to one of three categories of countries requiring special scrutiny that
are statutorily required to be listed on a “Special Watch List” submitted to congressional
committees by the Secretary of State under 22 U.S.C. 7101(b)(3). The other two categories
correspond to: (1) countries ranked “Tier 1” in the current U.S. Department of State’s annual
Trafficking in Persons Report that were ranked as “Tier 2” in the previous annual report, and (2)
countries ranked as “Tier 2” in the current annual report that were ranked as “Tier 3” in the
previous annual report.

                                               16
